No. 20-8363

In the Supreme Court of the United States
OUTHDORM ROS, Petitioner,
v.
PEOPLE OF THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE

OF SERVICE BY

COURIER

AND ELECTRONIC MAIL

I, Matthew Mulford, Deputy Attorney General, a member of the Bar of this
Court hereby certify that on October 15, 2021, a copy of the BRIEF IN
OPPOSITION in the above-entitled case was mailed by FedEx to:
FedEx to:
John L. Staley
Law Office of John L. Staley
12463 Rancho Bernardo Road, #372
San Diego, CA 92128
Attorney for Petitioner
Outhdorm Ros
And by Electronic Mail to:
johnlstaley@aol.com
I further certify that all parties required to be served have been served.
/s/ Matthew Mulford
MATTHEW MULFORD, Deputy Attorney General
Office of the Attorney General
600 West Broadway, Suite 1800
San Diego, CA 92101
P.O. Box 85266
San Diego, CA 92186-5266
Telephone: (619) 738-9025
Counsel for Respondent
MM:AWM / SD2021801694 / 83093375.docx

